Audit
Report
     DEFENSE REUTILIZATION AND MARKETING SERVICE
              PUBLIC/PRIVATE COMPETITION



Report No. D-2002-043                    January 25, 2002



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFGE                  American Federation of Government Employees
DLA                   Defense Logistics Agency
DRMOs                 Defense Reutilization and Marketing Offices
DRMS                  Defense Reutilization and Marketing Service
OMB                   Office of Management and Budget
RCI                   Resource Consultants, Incorporated
                       Office of the Inspector General, DoD
Report No. D-2002-043                                              January 25, 2002
(Project No. D2000CH-0076.002)

                 Defense Reutilization and Marketing Service
                         Public/Private Competition

                                 Executive Summary

Introduction. The audit was performed in response to a request from Congressman
John M. McHugh of New York. Congressman McHugh asked us to review a
constituent’s allegations relating to the Office of Management and Budget Circular A-76
public/private competition to provide logistics services at 10 Defense Reutilization and
Marketing Service offices. The constituent alleged that the selection process was biased
and designed to support the award of a contract to Resource Consultants, Incorporated,
because the contractor’s program director was a close friend of the Commander of the
Defense Reutilization and Marketing Service. The constituent also alleged that the
contractor was not sufficiently staffed to perform the required logistics functions and
intended to default on the contract.

Objectives. The objective of the audit was to determine the merit of the allegations.

Results. We did not substantiate the allegation that the contract award to Resource
Consultants, Incorporated, was biased because their program director was friends with
the then Commander, Defense Reutilization and Marketing Service. We determined
that the Commander, Defense Reutilization and Marketing Service knew the Resource
Consultants, Incorporated program director, but they were not friends, and the
Commander did not participate in the award process. The Commander, Defense
Logistics Support Command, made the award decision. The allegation that Resource
Consultants, Incorporated, was not sufficiently staffed to perform the required logistics
functions also was not substantiated. As of September 2001, performance levels were
being met, and there were no indications that the contractor would default on its
obligations. See the Summary of Allegations and Audit Results section for a discussion
of the allegations.

Management Comments. We provided a draft of this report on December 21, 2001.
No written response to this report was required, and none was received. Therefore, we
are publishing this report in final form.
Table of Contents

Executive Summary                               i


Introduction
     Background                                 1
     Objective                                  2
     Summary of Allegations and Audit Results   3

Appendixes
     A. Audit Process
          Scope and Methodology                 4
     B. Prior Coverage                          5
     C. Report Distribution                     7
Background
    The audit was performed in response to Congressman John M. McHugh’s
    request that we review allegations from a constituent relating to the Office of
    Management and Budget (OMB) Circular A-76 public/private competition to
    provide logistics services at 10 Defense Reutilization and Marketing Service
    (DRMS) offices. The constituent alleged that the selection process was biased
    and designed to support the award of a contract to Resource Consultants,
    Incorporated (RCI) and that the contractor was not sufficiently staffed to
    perform the required logistics functions and intended to default on the contract.

    Defense Logistics Agency. The Defense Logistics Agency (DLA) provides
    worldwide logistics support for the Military Departments and the Unified
    Combatant Commands under conditions of peace and war. It also provides
    logistics support to other DoD Components and certain Federal agencies,
    foreign governments, international organizations, and others as authorized.
    Headquartered in Battle Creek, Michigan, DRMS is a DLA primary-level field
    activity.

    DRMS Function and Structure. The DRMS disposes of excess property
    received from DoD Components. Property that is not reutilized by DoD,
    transferred to other agencies, or donated to state or local governments is sold to
    the public as surplus. DRMS accomplishes this through reutilization, transfer,
    donation, or sale of the property. Excess property is transported to collection
    points called Defense Reutilization and Marketing Offices (DRMOs).

    Public/Private Competition for Logistics Services at DRMOs. In June 1998,
    DLA announced the OMB A-76 public/private competition for logistics
    functions of receiving, storing, and issuing excess and surplus useable property;
    inventory accountability; and customer assistance at 10 DRMOs. The DRMOs
    are located in the New England and Mid-Atlantic states: Portsmouth, New
    Hampshire; Groton, Connecticut; Watertown, New York; Lakehurst, New
    Jersey; Tobyhanna, Pennsylvania; Chambersburg, Pennsylvania;
    Mechanicsburg, Pennsylvania; Fort Meade, Maryland; Richmond, Virginia; and
    St. Juliens, Virginia. The objective of the A-76 competition was to reduce DLA
    operating costs while preserving the quality of the output at the DRMOs. In
    June 1999, Defense Supply Center Columbus issued solicitation
    SPO700-99-R-7004 requesting proposals for performance of the DRMO
    logistics functions for a 3-year base period and two 1-year option periods. The
    solicitation provided that a “best value” offer would be selected, based on four
    evaluation factors: cost/price (which was approximately equal to the remaining
    three evaluation factors), technical, past performance, and socioeconomic
    factors. The solicitation further provided that the best value contractor offer
    would be compared to the Government’s in-house cost estimate in accordance
    with the terms of the OMB Circular A-76 to determine if the contractor or in-
    house performance of the services was more cost-effective. The solicitation
    closed on October 1, 1999.


                                         1
    DRMS A-76 Award. Four offers were received, all of which were determined
    to be in the competitive range: RCI; Systems Support Alternatives, Inc.; VSE
    Corporation; and Morrison Knudsen Corporation. After a formal selection
    process, based on the four evaluation factors, RCI was selected as the best value
    offeror. In accordance with OMB Circular No. A-76 cost comparison
    procedures, a final comparison was made between the Government in-house cost
    estimate and the best value industry offeror. The comparison resulted in the
    award to RCI. The adjusted total cost to contract with RCI for the services was
    $17,515,555, approximately $1 million less than the Government’s offer,
    $18,517,760, over the 5 year period.

    Appeals to Cost Comparison Decision. The DLA received four administrative
    appeals challenging the decision to award the contract to RCI. American
    Federation of Government Employees (AFGE) Local 702, AFGE Council 169,
    two DRMO employees together, and RCI submitted an appeal to preserve its
    right to address several issues during the A-76 administrative appeals period.
    On June 14, 2000, the appeals were denied. The Administrative Appeal
    Authority sustained three items that were not substantial enough to change the
    tentative decision to award to RCI.

Objective
    The objective of this audit report was to determine the merit of the allegations in
    an October 5, 2000, complaint through Representative John M. McHugh, of
    New York. See Appendix A for a discussion of the audit scope and
    methodology. See Appendix B for prior coverage related to the audit
    objectives.




                                         2
Summary of Allegations and Audit Results
    A summary of the allegations and our audit results are discussed below.

    Allegation 1. The selection process was biased and designed to support the
    award of a contract to RCI because the RCI program director was a close friend
    of the DRMS Commander at time of the complaint.

    Audit Results. The allegation was not substantiated. The DRMS Commander
    did not play a role in the award of the contract to RCI. The Source Selection
    Authority, which was the Commander, Defense Logistics Support Command,
    made the award decision. Both the Commander of the DRMS and the Program
    Director for RCI were contacted and both stated that although they knew each
    other, there was no personal relationship or friendship.

    Allegation 2. The contractor was not sufficiently staffed to perform the
    required logistics functions and intended to default on the contract.

    Audit Results. The allegation was not substantiated. We did not identify any
    attempts by RCI to default on the DRMS contract. The contract was awarded to
    RCI on June 14, 2000, and the transition period was to be completed by
    November 3, 2000. The administrative contracting officer stated that as of
    November 8, 2000, the contractor was at 91 percent of the proposed staffing
    level, but not in danger of defaulting on the contract although several
    requirements still needed to be implemented. The Portsmouth and Tobyhanna
    locations were non-operational, and requirements for new employee training of
    hazardous materials had not been fulfilled. As of February 2001, the
    administrative contracting officer stated that the Portsmouth and Tobyhanna
    locations were operational and contract default was not an issue. However,
    hazardous materials training for new employees had not been completed. As of
    September 2001, hazardous material training had been completed and the
    contractor was meeting performance levels.




                                        3
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DLA and DRMS methodology and supporting
    documentation for the OMB Circular A-76 competition and award for the
    10 DRMOs located in the New England and Mid-Atlantic states. The time
    frame for this A-76 competition ranged from the announcement in June 1998 to
    the final award decision in June 2000. We interviewed DLA, Defense Supply
    Center Columbus, and DRMS personnel involved in the OMB Circular A-76
    competition and award process, including members of the Performance Work
    Statement Team, Most Efficient Organization study team, Source Selection
    Evaluation Board, Source Selection Advisory Council members, and the
    Contracting Officer.

    Limitation to Scope. We did not review the management control program
    because the audit scope was limited to the allegations received.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data in
    the performance of this audit.

    Audit Type, Dates, and Standards. We performed this program audit from
    October 2000 through December 2001, in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.




                                       4
Appendix B. Prior Coverage

General Accounting Office
    General Accounting Office, Report No. NSIAD-00-107 (OSD Case No. 2020),
    “DoD Competitive Sourcing: Savings Are Occurring, but Actions Are Needed
    to Improve Accuracy of Savings Estimates,” August 8, 2000

    General Accounting Office, Report No. NSIAD-99-152 (OSD Case No. 1827),
    “DoD Competitive Sourcing Lessons Learned System Could Enhance A-76
    Study Process,” July 21, 1999

    General Accounting Office, Report No. NSIAD-99-44 (OSD Case No. 1725),
    “DoD Competitive Sourcing: Results of Recent Competitions,”
    February 23, 1999

    General Accounting Office, Report No. NSIAD-99-46 (OSD Case No. 1727),
    “DoD Competitive Sourcing: Questions About Goals, Pace, and Risks of Key
    Reform Initiative,” February 22, 1999

    General Accounting Office, Report No. NSIAD-98-82 (OSD Case No. 1535),
    “Base Operations: DoD’s Use of Single Contracts for Multiple Support
    Services,” February 27, 1998

    General Accounting Office, Report No. NSIAD-97-86 (OSD Case No. 1301),
    “Base Operations: Challenges Confronting DoD as It Renews Emphasis on
    Outsourcing,” March 11, 1997

Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-173, “Independent Review of the
    Defense Finance and Accounting Service Cost Comparison Study of Civilian
    Pay Function,” August 14, 2001

    Inspector General, DoD, Report No. D-2001-167, “Independent Review of the
    Cost Comparison Study of Military Retired and Annuitant Pay Functions,”
    August 2, 2001

    Inspector General, DoD, Report No. D-2001-023, “Implementation of Most
    Efficient Organization for the Defense Finance and Accounting Service
    Commissary Vendor Payment Function,” December 20, 2000

    Inspector General, DoD, Report No. D-2000-117, “Independent Review of the
    Defense Finance and Accounting Service Competitive Sourcing Study of the
    Depot Maintenance Accounting Function,” April 28, 2000


                                     5
Inspector General, DoD, Report No. 99-244, “Independent Review of the
Defense Finance and Accounting Service Competitive Sourcing Study of the
Transportation Accounting Function,” September 1, 1999

Inspector General, DoD, Report No. 99-236, “Independent Review of the
Defense Finance and Accounting Service Competitive Sourcing Study of the
Defense Commissary Agency Accounting Function,” August 19, 1999

Inspector General, DoD, Report No. 99-208, “Defense Finance and Accounting
Service Commercial Activities Program,” July 8, 1999

Inspector General, DoD, Report No. 99-078, “Outsourcing of Defense
Commissary Agency Operations,” February 5, 1999
Inspector General, DoD, Report No. 97-128, “Evaluation of DoD Civilian Pay
Outsourcing Study,” April 15, 1997




                                  6
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
     Director, Competitive Sourcing and Privatization
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Inspector General, Defense Intelligence Agency
Director, Defense Logistics Agency
   Commander, Defense Reutilization Marketing Service
Inspector General, National Security Agency

Non-Defense Federal Organization and Individual
Office of Management and Budget
  Commercial Activities and Privatization
  National Security Division, Special Projects Branch




                                          7
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          8
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Henry F. Kleinknecht
Kent E. Shaw
Sandra S. Morrell
Tracy L. Simmons
Andrew D. Greene
Stephanie N. Lay
Erica D. Kimbrough
